        OFFICE OF AUDIT
        REGION VII
        KANSAS CITY, KS                                  MEMORANDUM OF REVIEW
          




                              OFFICE OF

                              INSPECTOR GENERAL
                              U.S. DEPARTMENT OF HOUSING AND URBAN DEVELOPMENT


                           

 




                          CitiMortgage, Inc.
                Foreclosure and Claims Process Review
                            O’Fallon, MO




     
     
    MEMORANDUM NO. 2012-KC-1801                                 MARCH 12, 2012
                                                                U.S. Department of Housing and Urban Development
                                                                Office of Inspector General, Region VII
                                                                Gateway Tower II - 5th Floor
                                                                400 State Avenue
                                                                Kansas City, KS 66101-2406

                                                                (913) 551-5870 FAX (913) 551-5877
                                                                http://www.hudoig.gov
                                                                OIG Fraud Hotline 1-800-347-3735




                                                                                         MEMORANDUM NO.
                                                                                              2012-KC-1801
March 12, 2012

MEMORANDUM

FOR:            Charles S. Coulter, Deputy Assistant Secretary for Single Family Housing, HU

                //signed//
FROM:           Ronald J. Hosking, Regional Inspector General for Audit, 7AGA

SUBJECT: CitiMortgage, Inc.
         Foreclosure and Claims Process Review
         O’Fallon, MO


                                INTRODUCTION AND BACKGROUND

As part of the Office of the Inspector General’s (OIG) nationwide effort to review the
foreclosure practices of the five largest Federal Housing Administration (FHA) mortgage
servicers (Bank of America, Wells Fargo Bank, CitiMortgage, JP Morgan Chase, and Ally
Financial, Incorporated), we reviewed CitiMortgage’s foreclosure and claims processes. In
addition to this memorandum, OIG issued separate memorandums for each of the other four
reviews.1 OIG also plans to issue a summary memorandum reporting the results of all five
memorandums. We performed these reviews due to reported allegations made in the fall of 2010
that national mortgage servicers were engaged in widespread questionable foreclosure practices
involving the use of foreclosure “mills” and a practice known as “robosigning”2 of sworn
documents in thousands of foreclosures throughout the United States. We initially focused our
efforts on examining the foreclosure practices of servicers in the judicial States and jurisdictions
in which they do business.3




1
    See review memorandums (2012-FW-1802, 2012-AT-1801, 2012-CH-1801, 2012-PH-1801).
2
    We have defined the term “robosigning” as the practice of an employee or agent of the servicer signing
    documents automatically without a due diligence review or verification of the facts.
3
    With respect to foreclosure procedures, there are three variations: those States that require a complete judicial
    proceeding, which are referred to as “the judicial jurisdictions”; those that do not require a judicial proceeding;
    and those that are a hybrid. For purposes of this review, we determined that there were 23 judicial States and
    jurisdictions.
CitiMortgage is a nonsupervised FHA direct endorsement lender that can originate, sponsor, and
service FHA-insured loans. During Federal fiscal years 2009 and 20104, CitiMortgage submitted
19,189 FHA claims totaling $2.4 billion.5

CitiMortgage did not halt judicial foreclosures while it reviewed its policies and procedures, like
some servicers did in the fall of 2010. According to the November 2010 testimony to Congress
of a managing director of CitiMortgage, CitiMortgage believed that there was no reason to
suspend its foreclosure process because it had been taking measures to strengthen its practices
beginning in the fall of 2009 to ensure that foreclosures were processed correctly. Further,
CitiMortgage was reviewing approximately 10,000 affidavits that were executed in pending
judicial foreclosures and expected to refile affidavits executed before the fall of 2009.
Separately, CitiMortgage was also reviewing approximately 4,000 pending foreclosure affidavits
in judicial States that were executed at its Dallas processing center that may not have been signed
in the presence of a notary. CitiMortgage expected that it would refile those affidavits as well.

Because we identified potential False Claims Act6 violations, we provided the U.S. Department
of Justice (DOJ) with our analyses and preliminary conclusions as to whether CitiMortgage
engaged in the reported foreclosure practices.

DOJ used our review and analysis in negotiating a settlement agreement with CitiMortgage. On
February 9, 2012, DOJ and 49 States attorneys general announced a proposed settlement of $25
billion with CitiMortgage and four other mortgage servicers for their reported violations of
foreclosure requirements. As part of the proposed settlement agreement, each of the five
servicers will pay a portion of their settlement to the United States and also must undertake
certain consumer relief activities. The proposed settlement agreement described tentative credits
that each mortgage servicer would receive for modifying loans, including principal reduction and
refinancing, and established a monitoring committee7 and a monitor to ensure compliance with
agreed-upon servicing standards and the consumer relief provisions. Once the final settlement
agreement has been approved by the court, OIG will issue a separate summary memorandum
detailing each of the five servicers’ allocated share of payment due as a result of the settlement
agreement.

Our objective was to determine whether CitiMortgage complied with applicable foreclosure
procedures when processing foreclosures on FHA-insured loans.

                                    METHODOLOGY AND SCOPE

To accomplish our review objective, we
    Obtained an understanding of relevant legislation, program guidance, and criteria related
       to FHA single-family mortgage insurance.


4
    For the period October 1, 2008 through September 30, 2010.
5
    Properties located in judicial foreclosure States and jurisdictions accounted for $778 million in claims (34
    percent of the claims). Properties located in nonjudicial foreclosure States and jurisdictions accounted for more
    than $1.6 billion in claims (66 percent of the total loans with claims). These amounts include all categories of
    FHA claims.
6
    31 U.S.C. §3729 et. seq.
7
    Comprised of representatives of the State attorneys general, DOJ, and HUD.
                                                         2
       Obtained and reviewed relevant CitiMortgage written policies and procedures regarding
        its foreclosure process.
       Obtained and examined relevant reviews of CitiMortgage’s servicing and foreclosure
        processes.
       Obtained and reviewed various congressional testimonies and documents from various
        court proceedings related to the foreclosure practices of CitiMortgage and other lenders
        and law firms.
       Interviewed CitiMortgage management and staff and vendor staff, including those
        involved in the document execution, notary, foreclosure, and claims processes.
       Coordinated with CitiMortgage’s legal counsel, our Office of Legal Counsel, and DOJ
        attorneys.
       Identified and reviewed a sample of 28 conveyance CitiMortgage FHA claims processed
        by the U.S. Department of Housing and Urban Development (HUD) during the review
        period. We selected a nonrepresentative sample of 28 conveyance claims to review for
        affidavits. A conveyance claim occurs when the servicer conveys the property to HUD in
        exchange for insurance benefits. We chose our first nine conveyance claims based on the
        number of days between the default date and the claim processed date (to get a variety of
        lengths of time) and based on the claim process date (to get claims from a variety of
        timeframes). We later chose 19 additional conveyance claims with high loss amounts in
        States that were listed as judicial only in a RealtyTrac listing.8
       Reviewed FHA claims and related documents, including affidavits, for the 28 claims in
        our sample.
       Obtained and analyzed FHA claims data from HUD.
       Issued one Inspector General administrative subpoena for documents and records.

During the course of our review and the drafting of this memorandum, CitiMortgage was
actively engaged in negotiations with DOJ in an attempt to resolve potential claims under the
False Claims Act or other statutes for the conduct we were reviewing. Accordingly, OIG
determined that our work product was privileged and not releasable to CitiMortgage for any
purpose, including the solicitation of written comments on our findings from CitiMortgage. For
this same reason, we did not provide CitiMortgage with a copy of the draft memorandum. Both
DOJ and HUD concurred with our determination that the work product was privileged.

OIG also issued memorandums reporting the results of the reviews of four other servicers. The
results reported in the five OIG memorandums differ due to various factors. These factors
include (1) the level of information made available to auditors at the time of the onsite reviews or
that was obtained later through subpoenas or civil investigative demands9; (2) variances between
review procedures used, including the analysis of the data, that were governed in part by the
amount and types of information obtained; (3) differences between the foreclosure procedures
used by the servicers; and (4) scope limitations imposed by some servicers.


8
    RealtyTrac, Inc., is a private company operating an online marketplace for foreclosed-upon properties. It
    collects and aggregates foreclosure data from more than 2,200 counties, covering more than 90 percent of U.S.
    households.
9
    Under 31 U.S.C. § 3733 et. seq., CIDs can be served on a person to give oral testimony whenever the Attorney
    General has reason to believe that the person may be in control of information relevant to a false claim
    investigation.
                                                        3
Our review generally covered CitiMortgage’s foreclosure and claims processes for its FHA
claims initially processed by HUD between October 1, 2008, and September 30, 2010, including
its procedures for signing and notarizing sworn judgment affidavits. The review included both
judicial and nonjudicial foreclosure States and jurisdictions, which provided a broad overview of
CitiMortgage’s practices and compliance with requirements. We expanded the scope as needed
to accomplish our objective. We initiated our review on October 15, 2010, and performed onsite
work at CitiMortgage’s office in O’Fallon, MO, between October and December 2010.

                                                 Scope Limitation

Our review was significantly hindered by CitiMortgage’s lack of records. For instance,
CitiMortgage did not have a mechanism for tracking how many foreclosure documents were
signed during our review period or which documents were signed by each individual. The lack
of tracking impaired our review because it prevented us from accurately measuring the number
of foreclosure documents signed by employees and measuring the complete impact of
CitiMortgage’s foreclosure practices.

                                            RESULTS OF REVIEW

CitiMortgage did not establish effective control over its foreclosure process. This failure
permitted a control environment in which

             Affiants10 routinely signed foreclosure documents, including affidavits, certifying that
              they had personal knowledge of the facts when they did not. Specifically, affiants
              signed large volumes of foreclosure documents without reviewing the supporting or
              source documentation referenced in them.
             Notaries public routinely notarized documents without witnessing affiant signatures.
             Attorneys may have improperly prepared documents and misrepresented the work
              they performed.

This flawed control environment resulted in CitiMortgage’s filing improper legal documents,
thereby misrepresenting its claims to HUD and may have exposed it to liability under the False
Claims Act.

                    Questionable Affidavit and Foreclosure Document Processes

CitiMortgage failed to follow HUD requirements11 for properties it foreclosed upon in judicial
foreclosure States and jurisdictions. These provisions required CitiMortgage to obtain and
convey to the Secretary of HUD good and marketable title to properties. CitiMortgage may have
conveyed improper titles to HUD because it did not establish a control environment which
ensured that affiants performed a due diligence review of the facts submitted to courts and
employees properly notarized documents.

Judicial foreclosures were processed through the court system beginning with CitiMortgage’s
filing a complaint or petition regarding a mortgage purportedly in default. The formal legal
10
     An affiant is a person who signs an affidavit and attests to its truthfulness before a notary public.
11
     24 C.F.R. § 203.366(a) and HUD Handbook 4330.4, paragraphs 2-6 and 2-23
                                                            4
document stated what the debt was and why the default should allow CitiMortgage to foreclose
on the property. In many judicial foreclosures, an affidavit was part of the foreclosure
documentation. Generally, a representative of CitiMortgage swore in a notarized affidavit that
CitiMortgage owned or held the mortgage in question and that the borrower was in arrears. As
judicial States and jurisdictions routinely resolved foreclosures through summary judgment,12 the
accuracy and propriety of the documents were essential to ensure the integrity of the foreclosure
process. CitiMortgage used a flawed process to submit FHA conveyance claims for judicially
foreclosed-upon properties during the review period and received FHA claim payments of nearly
$597 million.13

Affiants Robosigned Foreclosure Documents

Because CitiMortgage did not have written policies and procedures for the signing process
before November 2009 and did not have a mechanism for tracking foreclosure documents signed
during our review period, we relied on interviews to gain an understanding of its practices. We
found that CitiMortgage’s employees signed foreclosure documents without reviewing them for
accuracy. However, CitiMortgage also made significant changes to its process for reviewing and
signing foreclosure documents during our review period, which included consolidating the
process.

Before November 2009, CitiMortgage employees regularly signed foreclosure documents with
only a cursory review for completeness. They did not review the documents for accuracy. This
process was corroborated by interviews with vice presidents, assistant vice presidents, and
contractor employees; an April 2008 deposition; a November 2010 testimony before Congress;
and a November 2010 internal CitiMortgage report. In our sample of 28 conveyance claims, we
identified 12 with foreclosure documents signed by 6 CitiMortgage employees that contained
financial figures or default information. We interviewed four of these affidavit signers, who all
confirmed that they signed documents without verifying their accuracy; the other two are no
longer employed by CitiMortgage. According to several employees, the process of signing
documents was inherited with their positions.

Beginning in November 2009, CitiMortgage began to consolidate its process for reviewing and
signing foreclosure documents into the process it uses today. The consolidation was completed
in February 2010. This change resulted in the creation of a department in which nonmanagement
employees were full-time document signers. These employees were made officers of
CitiMortgage in September 2010. They reviewed facts and figures in foreclosure documents
before signing. Since the consolidation process began, CitiMortgage had also begun various
levels of tracking and review of the process.

When asked about the number of foreclosure documents they signed before the consolidation,
employees were unable to provide consistent estimates. Some employees indicated that they
signed 60-200 documents per day. Another employee indicated that he would sometimes receive
1- to 2-inch stacks of documents multiple times in a day. Several employees acknowledged that
the number of documents increased over time.
12
     A decision made on the basis of statements and evidence presented for the record without a trial. It is used
     when there is no dispute as to the facts of the case and one party is entitled to judgment as a matter of law.
13
     This amount was calculated based on information in HUD’s Single Family Data Warehouse and excludes
     claims for deeds in lieu of foreclosure.
                                                           5
The process CitiMortgage used before the consolidation did not ensure that its foreclosure
documents were properly executed before it submitted them to courts or that it conveyed good
and marketable title to HUD.

Notaries Did Not Witness Signatures

CitiMortgage did not establish a control environment which ensured that its notaries met their
responsibilities under State laws that required them to witness affiants’ signatures on documents
that they notarized.14 CitiMortgage employed notaries15 who notarized signatures on foreclosure
documents and used notaries of its collocated vendors.

Before November 2009, CitiMortgage employees regularly signed foreclosure documents when
not in the presence of a notary. This process was corroborated by several interviews with signers
and notaries, including vice presidents, assistant vice presidents, and contractor employees; an
April 2008 deposition; a November 2010 testimony before Congress; and a November 2010
internal CitiMortgage report. If a notary did not witness the signature, the notarization of the
document was improper. Since February 2010, CitiMortgage had changed its process to require
signing to take place in the presence of a notary.

As one of the primary purposes of using a notary was to verify the authenticity of the signer,
CitiMortgage’s failure to ensure that notaries witnessed signatures was a significant control
weakness. Because this type of deficiency undermined the integrity of the control environment,
the affidavits and other foreclosure documents submitted by CitiMortgage were unreliable and
inauthentic, and may have exposed it to False Claims Act liability.

Attorneys May Have Improperly Prepared Documents

CitiMortgage used law firms that may have engaged in questionable practices to process FHA-
insured foreclosures. These practices ranged from allegations of employees’ or agents’ signing
documents automatically without a due diligence review or verification of the facts and
unauthorized practice of law to a judge’s ruling that in an attempt to collect on questionable debt,
a firm filed deceptive documents.

Before October 2010, CitiMortgage indicated that there was a subset of affidavits that were
signed directly by the attorneys whose firms prepared them. The number and extent of these
activities is not known as affidavits were not tracked. However, in a November 2010 internal
CitiMortgage report, CitiMortgage indicated that it did not have a process in place to validate the
accuracy of affidavits signed under power of attorney delegation authorities.

Our review found that several of the law firms used by CitiMortgage to process judicial and
nonjudicial foreclosures had been named in various court proceedings throughout the country,
alleging questionable foreclosure activities.


14
     Every state’s notary laws require that the notary personally administer an oath and/or personally verify the
     identity of the document signer.
15
     These notaries had additional job duties and responsibilities.
                                                           6
For example, CitiMortgage was referred to in a complaint16 against Goldbeck, McCafferty, and
McKeever, PC, a law firm that conducted foreclosure work. The complaint alleged that
nonlawyers in the firm’s employ engaged in the unauthorized practice of law by preparing
foreclosure complaints, signing lawyers’ names to those complaints, and filing those complaints
in county courts around the Commonwealth of Pennsylvania. The complaint included 27
exhibits containing signatures to support the plaintiff’s allegation that hundreds or thousands of
cases were prepared, signed, and filed by the nonlawyer defendants without attorney review. If
nonlawyers, on Goldbeck, McCafferty, and McKeever’s behalf, signed and filed documents for
FHA-insured foreclosures, these filings may not have been valid. As table 1 shows, the exhibits
included in the complaint against the firm contained eight signatures on CitiMortgage documents
for attorney Michael McKeever, several of which appeared to have been by different individuals.

Table 1: Different signatures and signers for attorney Michael McKeever




In addition, the chief U.S. bankruptcy judge for Western Pennsylvania ruled that the firm filed
copies of three key letters, created after the fact in an attempt to collect on questionable debt, that
were not sent to the homeowner or her lawyer. The judge ordered Goldbeck, McCafferty, and
McKeever and the attorney to report to the Disciplinary Board of the State Supreme Court.17

In another example, a notary for Phelan, Hallinan & Schmieg testified in a deposition that over a
3-year period, he falsely acknowledged tens of thousands of mortgage assignments for the firm,
often outside the signer’s presence. The notary also acknowledged under oath that he notarized
documents in New Jersey when he did not hold a notary license in that State.18 In addition, a

16
     Loughren vs. Lion, et al., GD-10, Allegheny County, PA
17
     In re Hill, 437 B.R. 503 (Bankr. W.D. Pa., November 24, 2010)
18
     Bank of New York v. Ukpe, Docket No. F-10209-08
                                                         7
partner was accused of having potential conflicts of interest in the assignment of mortgage notes.
It was argued that the partner executed an assignment in his capacity as a Mortgage Electronic
Registration Systems officer while Phelan, Hallinan & Schmieg was also a vendor for Mortgage
Electronic Registration Systems, the assignor. The notary and partner had both been individually
named in proceedings involving questionable foreclosure practices for servicers other than
CitiMortgage.19 According to CitiMortgage’s records, Phelan, Hallinan & Schmieg was used for
foreclosure cases in two judicial foreclosure States.20 It signed foreclosure documents for 3 of
the 28 sample loans we reviewed.

On November 16, 2010, the Congressional Oversight Panel released an indepth report analyzing
the robosigning allegations.21 Its report concluded that “[t]he foreclosure documentation
irregularities unquestionably show a system riddled with errors” and emphasized “that mortgage
lenders and securitization servicers should not undertake to foreclose on any homeowner unless
they are able to do so in full compliance with applicable laws and their contractual agreements.”

If third-party law firms engaged in questionable practices on behalf of CitiMortgage, the
foreclosures may not have complied with laws and agreements. Based upon our review, we
made a determination that CitiMortgage’s practices may have exposed it to liability under the
False Claims Act.

                                                CONCLUSION

CitiMortgage did not establish an effective control environment to ensure the integrity of its
foreclosure process. Because it failed to establish proper policies and procedures that fostered
compliance with laws and regulations, its affiants robosigned foreclosure documents, its notaries
failed to authenticate signatures, and it used law firms that may have falsified signatures on legal
foreclosure documents. As a result of its flawed control environment, CitiMortgage engaged in
improper practices by not fully complying with applicable foreclosure procedures when
processing foreclosures on FHA-insured loans. This flawed control environment resulted in
CitiMortgage’s filing improper legal documents, thereby misrepresenting its claims to HUD.

During the review period, CitiMortgage submitted 5,182 conveyance claims22 totaling nearly
$597 million in the 23 judicial foreclosure States and jurisdictions. DOJ used our review and
analysis in negotiating the settlement.

Once the settlement agreement is approved by the court, OIG will issue a separate summary
memorandum to HUD containing recommendations to correct weaknesses discussed in this and
the other four memorandums. Accordingly, this memorandum contains no recommendations. 

19
     U. S. Bank NA v. Sinchegarcia, F-18446-08. Deutsche Bank National Trust Company v. Charlene Smith, No.
     08-3089
20
     CitiMortgage indicated in a foreclosures referral matrix that Phelan, Hallinan & Schmieg was used for 100
     percent of its loans in New Jersey and 50 percent of its loans in Pennsylvania. However, CitiMortgage did not
     maintain a list of all affidavits and documents filed.
21
     Congressional Oversight Panel, November Oversight Report Examining the Consequences of Mortgage
     Irregularities for Financial Stability and Foreclosure Mitigation (November 16, 2010), available at
     http://cop.senate.gov/documents/cop-111610-report.pdf (submitted under section 125(b)(1) of Title 1 of the
     Emergency Economic Stabilization Act of 2008, Pub. L. No. 110-343)
22
     Excludes deeds in lieu of foreclosure
                                                         8
